BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Amici Curiae Brief of Former Environmental
Protection Agency, California Air Resources Board,
and Department of Justice Officials Jeffrey E.
Holmstead, Ronald J. Tenpas, John B. Dunlap III, and
Lynn Buhl in Support of Petitioners in 20-994,
Volkswagen Group of America, Inc., et al. v.
Environmental Protection Commission of Hillsborough
County, Florida, et al., was sent via Three Day Service
to the U.S. Supreme Court, and 3 copies were sent via
Three Day Service and e-mail to the following parties
listed below, this 16th day of February, 2021:
Robert J. Giuffra Jr.
Sullivan & Cromwell
125 Broad Street
New York, NY 10004
(212) 558-3121
giuffrar@sullcrom.com
Counsel for Volkswagen Group of America, Inc., et al.
Matthew D. Slater
Cleary Gottlieb Steen & Hamilton LLP
2112 Pennsylvania Avenue, NW
Suite 1000
Washington, DC 20037
(202) 97 4-1500
mslater@cgsh.com
Counsel for Robert Bosch LLC

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001

www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

I

1

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Peter K. Stris
Stris and Maher LLP
777 S. Figueroa Street
Suite 3850
Los Angeles, CA 90017
(213) 995-6800
peter .stris@strismaher.com

Counsel for Respondents
Matthew A. Fitzgerald
Counsel of Record
McGuire Woods LLP
Gateway Plaza
800 East Canal Street
Richmond, VA 23218
(804) 775-4716
mfitzgerald@mcguirewoods.com

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 16, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affi.ant on the date below designated.
Date:

&/t ~0

/(o 1 00 d (
I

,jytc tJ . ~

Notary Public
[seal]

